HHS/OIG-Audit--"Improper Fiscal Year 1999 Medicare Fee-for-Services Payments, (A-17-9901999)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Improper Fiscal Year 1999 Medicare Fee-for-Service Payments," (A-17-99-01999)
February 17, 2000
Complete Text of Report is available in PDF format
(1.1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides results of our review of Fiscal Year (FY) 1999 Medicare
fee-for-service claims. The objective of this review was to estimate the extent
of fee-for-service payments that did not comply with Medicare laws and regulations.
Based on our statistically valid sample, we estimate that improper Medicare
benefit payments made during FY 1999 totaled $13.5 billion, or about 7.97 percent
of the $169.5 billion in processed fee-for-service payments reported by the
Health Care Financing Administration (HCFA). These improper payments, as in
past years, could range from inadvertent mistakes to outright fraud and abuse.
Since we developed the first error rate for FY 1996, HCFA has demonstrated
continued vigilance in monitoring Medicare payments and developing appropriate
corrective action plans. In addition, our audit results clearly show that the
majority of health care providers submit claims to Medicare for services that
are medically necessary, billed correctly, and documented properly. For both
FYs 1998 and 1999, we estimated that over 90 percent of fee-for-service payments
met Medicare reimbursement requirements. We remain concerned, however, about
continuing problems with provider documentation. Documentation errors increased
by an estimated $3.4 billion over last year's estimate, largely as a result
of errors by home health agencies, durable medical equipment suppliers, and
physicians. Our recommendations address the need for HCFA to sustain its efforts
in reducing improper payments.